<html>
<title> - SECURING AMERICA: THE FEDERAL GOVERNMENT'S RESPONSE TO NUCLEAR TERRORISM AT OUR NATION'S PORTS AND BORDERS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
    SECURING AMERICA: THE FEDERAL GOVERNMENT'S RESPONSE TO NUCLEAR 
              TERRORISM AT OUR NATION'S PORTS AND BORDERS
=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 17, 2002

                               __________

                           Serial No. 107-139

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________





                          U.S. GOVERNMENT PRINTING OFFICE
82-452                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

               JAMES C. GREENWOOD, Pennsylvania, Chairman

MICHAEL BILIRAKIS, Florida           PETER DEUTSCH, Florida
CLIFF STEARNS, Florida               BART STUPAK, Michigan
PAUL E. GILLMOR, Ohio                TED STRICKLAND, Ohio
RICHARD BURR, North Carolina         DIANA DeGETTE, Colorado
ED WHITFIELD, Kentucky               CHRISTOPHER JOHN, Louisiana
  Vice Chairman                      BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       JOHN D. DINGELL, Michigan,
ERNIE FLETCHER, Kentucky               (Ex Officio)
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)






                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Bonner, Hon. Robert C., Commissioner, United States Customs 
      Service....................................................    11
    Brooks, Linton, Acting Administrator, National Nuclear 
      Security Administration....................................    16
    Jones, Gary L., Director, Natural Resources and Environment, 
      accompanied by Laurie E. Ekstrand, Director, Tax 
      Administration and Justice Issues, U.S. General Accounting 
      Office.....................................................    24
    Rush, Jeffrey, Jr., Inspector General, U.S. Department of the 
      Treasury...................................................    28
    Younger, Stephen M., Director, Defense Threat Reduction 
      Agency.....................................................    20

                                 (iii)




    SECURING AMERICA: THE FEDERAL GOVERNMENT'S RESPONSE TO NUCLEAR 
              TERRORISM AT OUR NATION'S PORTS AND BORDERS

                              ----------                              


                       THURSDAY, OCTOBER 17, 2002

                  House of Representatives,
                  Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:14 a.m., in 
room 2123, Rayburn House Office Building, Hon. James C. 
Greenwood (chairman) presiding.
    Members present: Representatives Greenwood, Bilirakis, 
Stearns, Gillmor, Whitfield, Deutsch, Stupak, and Strickland.
    Also present: Representative Walden.
    Staff Present: Ray Shepherd, majority counsel; Mark 
Paoletta, majority counsel; Tom DiLenge, majority counsel; 
Brendan Williams, legislative clerk; and Chris Knauer, minority 
investigator.
    Mr. Greenwood. Good morning. The committee will come to 
order. The Chair recognizes himself for the purpose of an 
opening statement.
    The 18th Century British writer and statesman Edmund Burke 
once said that early and provident fear is the mother of 
safety. Our hearing today will explore how we can and must 
utilize the unfortunately rational fear of nuclear terrorism to 
promote the safety of our Nation.
    The government's most fundamental responsibility is to 
protect its citizenry, and given the grave consequences, there 
is no task more urgent than that of preventing nuclear 
terrorism. Yet, it has been 401 days since our Nation was 
attacked by terrorists, and despite reassurances from the 
administration, the security of our Nation's ports and borders 
remains insufficient to protect us from nuclear-smuggling.
    Given the findings of this committee's year-long review of 
port and border security, I believe it is imperative that the 
Senate act immediately to join the House in creating a 
Department of Homeland Security which will have as a primary 
mission the securing of our borders from terrorist threats and 
will serve as a focal point of the currently dispersed and 
diffused Federal efforts and programs aimed at preventing 
nuclear smuggling.
    Experts have coldly calculated the potential casualties 
from the detonation of a 12-kiloton nuclear bomb in a major 
U.S. metropolitan center. The blast and thermal effects of such 
an explosion would kill 52,000 people immediately, and direct 
radiation would cause 44,000 cases of radiation sickness of 
which 10,000 would be fatal. Radiation from fallout would kill 
an additional 200,000 people and cause several hundred thousand 
additional cases of radiation sickness. Unfortunately, the 
threat of nuclear terrorism is real, whether it is a nuclear 
device or a dirty bomb.
    As of December 31, 2001, the International Atomic Energy 
Agency has confirmed 17 incidents of illicit trafficking of 
highly enriched uranium or plutonium. According to the 
Department of Energy, the Russian weapons arsenal includes 
thousands of tactical nuclear warheads, many without mechanisms 
to prevent their unauthorized use, and over 200 tons of 
weapons-grade nuclear material stored at 53 different sites.
    Al Qaeda agents have tried to buy uranium from South Africa 
and have made repeated trips to three Central Asian countries 
to buy weapons-grade material or complete nuclear weapons. In 
addition, President Bush has warned that if Iraq were able to 
procure enough highly enriched uranium, it could manufacture a 
nuclear bomb within a year. And yesterday, we learned that 
North Korea, in violation of a mutually agreed framework, has 
continued its nuclear weapons program.
    This year alone we will spend $8.3 billion for the missile 
defense shield. A war with Iraq will also cost billions and put 
the lives of our military personnel at risk. Given these stark 
facts, there is simply no explanation for the Federal 
Government's diffuse, ineffective, and plodding effort to 
secure this Nation's ports and borders from nuclear terrorism.
    The Customs Service currently has primary responsibility 
for this issue. But while Customs agents put their lives on the 
line every day and are experts in the interdiction of guns, 
drugs, and money, they are not experts in the interdiction of 
nuclear devices or in the assessment, procurement, or 
deployment of systems designed to detect nuclear devices. 
Customs simply does not possess the technical expertise or 
coherent strategic plan for prioritizing, selecting, and 
installing radiation detection equipment at our 301 ports of 
entry.
    There is, however, great expertise elsewhere in the Federal 
Government. The Department of Energy's Second Line of Defense 
Program, which assists in preventing the export of fissile 
material from the former Soviet Union and its nuclear weapons 
labs, as well as the Defense Threat Reduction Agency, all 
employ this country's world-renowned leaders in the field of 
radiological and nuclear detection. These scientists possess 
real-world experience in not only the detection of nuclear 
sources, but in the assessment and the installation of the 
necessary equipment.
    But as our investigation discovered several months ago, 
Customs is not utilizing our country's best and brightest to 
protect us from the threat of nuclear terrorism at our Nation's 
ports and borders. Scientists like Rob York, of Second Line of 
Defense, have installed hundreds of sophisticated portal 
monitoring systems. Lawrence Livermore National Laboratory has 
the test beds to assess radiation detection equipment. Sandia 
National Laboratory has scientists with 50 years of experience 
working on nuclear detection capabilities.
    The Defense Threat Reduction Agency, in conjunction with 
DOE's National Nuclear Security Administration, has field-
tested much of the currently available detection technology. 
Why then are these experts not formally involved in this 
important endeavor? This is a critical time. It requires our 
Federal leaders to act cogently, decisively, and swiftly. This 
is not a time for Band-Aid solutions and half-hearted measures.
    Unfortunately, we are holding this second hearing today 
because of the lack of progress in this area since July. 
Although the administration has acknowledged the deficiencies 
uncovered by this committee, little concrete progress has been 
made in eliminating these holes in our system, despite the 
intervention of the White House Office of Homeland Security.
    This committee's responsibility is to ensure that the 
administration is taking all steps necessary to protect our 
Nation from such an unthinkable act. And, simply put, more 
needs to be done. We cannot let 401 more days go by before we 
significantly reduce the threat of nuclear terrorism.
    We thank our witnesses for their testimony today, and I now 
recognize the ranking member for his opening statement.
    [The prepared statement of Hon. James Greenwood follows:]
 Prepared Statement of Hon. James Greenwood, Chairman, Subcommitte on 
                      Oversight and Investigations
    The eighteenth-century British writer and statesman Edmund Burke 
once said that, ``Early and provident fear is the mother of safety.'' 
Our hearing today will explore how we can and must utilize the 
unfortunately rational fear of nuclear terrorism to promote the safety 
of our nation.
    A government's most fundamental responsibility is to protect its 
citizenry. And, given the grave consequences, there is no task more 
urgent than that of preventing nuclear terrorism. Yet it has been 401 
days since our nation was attacked by terrorists and, despite 
reassurances from the Administration, the security of our nation's 
ports and borders remains insufficient to protect us from nuclear 
smuggling by terrorists. Given the findings of this Committee's year-
long review of port and border security, I believe it is imperative 
that the Senate act immediately to join the House in creating a 
Department of Homeland Security, which will have as a primary mission 
the securing of our borders from terrorist threats and will serve as a 
focal point for the currently dispersed and diffused Federal efforts 
and programs aimed at preventing nuclear smuggling.
    Experts have coldly calculated the potential casualties from the 
detonation of a 12 kiloton nuclear bomb in a major U.S. metropolitan 
center. The blast and thermal effects of such an explosion would kill 
52,000 people immediately, and direct radiation would cause 44,000 
cases of radiation sickness, of which 10,000 would be fatal. Radiation 
from fallout would kill an additional 200,000 people and cause several 
hundred thousand additional cases of radiation sickness.
    Unfortunately, the threat of nuclear terrorism is real whether it 
is a nuclear device or a dirty bomb. As of December 31, 2001, the 
International Atomic Energy Agency had confirmed 17 incidents of 
illicit trafficking of highly enriched uranium or plutonium. According 
to the Department of Energy, the Russian weapon arsenal includes 
thousands of tactical nuclear warheads--many without mechanisms to 
prevent their unauthorized use--and over 200 tons of weapons grade 
nuclear material stored at 53 different sites. Al Qaeda agents have 
tried to buy uranium from South Africa and have made repeated trips to 
three central Asian countries to buy weapons grade material or complete 
nuclear weapons. In addition, President Bush has warned that if Iraq 
were able to procure enough highly enriched uranium, it could 
manufacture a nuclear bomb within a year.
    This year alone, we will spend $8.3 Billion for the missile defense 
shield. A war with Iraq will also cost billions and put the lives of 
our military personnel at risk. Given these stark facts, there is 
simply no explanation for the Federal government's diffuse, 
ineffective, and plodding effort to secure this nation's ports and 
borders from nuclear terrorism.
    The Customs Service currently has primary responsibility for this 
issue. But while Customs agents put their lives on the line everyday 
and are experts in the interdiction of guns, drugs, and money, they are 
not experts in the interdiction of nuclear devices or in the 
assessment, procurement, or deployment of systems designed to detect 
nuclear devices. Customs simply does not possess the technical 
expertise or coherent strategic plan for prioritizing, selecting, and 
installing radiation detection equipment at our 301 points of entry.
    There is, however, great expertise elsewhere in the Federal 
government. The Department of Energy's Second Line of Defense Program, 
which assists in preventing the export of fissile material from the 
former Soviet Union, and its nuclear weapon labs, as well as the 
Defense Threat Reduction Agency, all employ this country's world-
renowned leaders in the field of radiological and nuclear detection. 
These scientists possess real-world experience in not only the 
detection of nuclear sources, but in the assessment and installation of 
the necessary equipment.
    But as our investigation discovered several months ago, Customs is 
not utilizing our country's best and brightest to protect us from the 
threat of nuclear terrorism at our nation's ports and borders.
    Scientists like Rob York, of Second Line of Defense, have installed 
hundreds of sophisticated portal monitoring systems. Lawrence Livermore 
National Laboratory has the test beds to assess radiation detection 
equipment. Sandia National Laboratory has scientists with 50 years of 
experience working on nuclear detection capabilities. The Defense 
Threat Reduction Agency, in conjunction with DOE's National Nuclear 
Security Administration, has field-tested much of the currently 
available detection technology. Why are these experts not formally 
involved in this important endeavor?
    This is a critical time that requires our Federal leaders to act 
cogently, decisively, and swiftly. This is not a time for band-aid 
solutions and half-hearted measures. Unfortunately, we are holding this 
second hearing today because of the lack of progress in this area since 
July. Although the Administration has acknowledged the deficiencies 
uncovered by this Committee, little concrete progress has been made in 
eliminating these holes in our system--despite the intervention of the 
White House Office of Homeland Security. This Committee's 
responsibility is to ensure that the Administration is taking all steps 
necessary to protect our nation from such an unthinkable act. And, 
simply put, more needs to be done. We cannot let 401 more days go by 
before we significantly reduce the threat of nuclear terrorism.
    I thank our witnesses for their testimony today, and I now 
recognize the Ranking Member for an opening statement.

    Mr. Deutsch. Thank you, Mr. Chairman.
    I want to thank you for holding this important hearing on 
today's topic. What actions the Federal Government has taken to 
prevent the smuggling of nuclear material, or even a nuclear 
device, into the U.S. could be the most important matter we 
have ever examined.
    As a committee, we have invested considerable resources 
into this investigation. Staff have visited northern and 
southern border crossings, seaports, foreign and domestic mail 
processing facilities, and have conducted hundreds of hours of 
interviews in order to assess this threat. We have met 
regularly with officials from a multitude of U.S. Agencies and 
departments and have made requests of the Treasury and 
Transportation Inspectors General and to the General Accounting 
Office for assistance in this investigation, and our efforts 
continue.
    Mr. Chairman, I will avoid a description of the horrors and 
economic costs of a nuclear detonation, but suffice it to say 
it would be incalculable. What is particularly disturbing is 
that several experts think that the possibility of this 
happening 1 day in the United States is a real possibility. I 
will not attempt to predict the odds, but will say that we need 
to do more to protect ourselves from this threat.
    I agree with the comments made by Secretary Rumsfeld before 
a Senate committee that if a terrorist can get weapons of mass 
destruction, including nuclear ones, they will not hesitate for 
a second to use them. As we know, terrorists are trying. We 
have seen sobering evidence that the number of fissile material 
smuggling instances over the past 5 years has increased. We 
know also that the former Soviet Union's nuclear storage and 
reduction facilities, which include hundreds of tons of fissile 
material, perhaps even assembled weapons, are still in need of 
serious attention.
    On this last subject, I would like to digress briefly to 
acknowledge the excellent progress and efforts made by the 
Department of Energy's First Line and Second Line of Defense 
programs, and the Defense Threat Reduction Agency, for all 
their outstanding efforts to improve Russian site security. As 
a Nation, we owe a great deal of gratitude to these efforts. 
Without question, these programs represent some of the best 
money we could be spending to address this threat, and I would 
welcome additional hearings to examine if more resources are 
needed in these important programs.
    But it is against the backdrop of securing our own backyard 
ports of entry that we find ourselves still struggling to 
assess the progress we are making to counter this.
    For the record, I would like to be very clear in praising 
the U.S. Customs for the excellent daily service they provide 
to the Nation. It is not lost on this committee that much of 
what this agency's many field staff do regularly to protect 
this Nation from the range of threats is heroic. Much of the 
agency's work is done under extremely harsh conditions and 
accomplished 24 hours a day, 7 days a week, and across the 
globe. The committee thanks Customs for their outstanding work 
and dedication.
    Commissioner Bonner, on behalf of this committee, I hope 
you will convey our appreciation for the work of your employees 
regularly to protect this Nation.
    That being said, Mr. Commissioner, we do have several 
concerns about how the issue of selecting and installing fixed 
radiation detectors at our ports and borders has proceeded over 
the past 14 months. You know of our concerns, because we have 
sent you plenty of letters outlining that.
    Commissioner Bonner, I believe that the efforts of your 
agency, for whatever reason, have lacked a cohesive strategy to 
accomplish this goal, and that this effort needs to be better 
organized. I believe that your agency has also proceeded too 
slowly.
    While I grant that some progress has recently been made, 
and this is not the only form of protection you are providing 
at the ports, the past year has nevertheless been marked with 
confusion and delay. One may quibble with this position, but in 
closed session I will be more than happy to review where we 
believe you have been successful and where you have failed. As 
a threatened Nation, we cannot afford delay, but we can also 
not afford disorder.
    Mr. Commissioner, when the President says time is not on 
our side, I agree with him. But I really wonder if he has been 
briefed on the ways that this project has been coordinated over 
the past 14 months. Perhaps it is to Customs' credit that it 
claims it is now in charge. But to illustrate an example of our 
confusion, it was only a few months ago that officials from the 
Transportation Security Administration told committee staff 
that they were in charge. This lack of coordination must be 
addressed.
    As we have pointed out repeatedly in numerous letters to 
Customs, most of which are regularly copied to the Office of 
Homeland Security, it remains unclear to us who at times is 
running the show. For example, as we move forward, who will 
formally determine what roles the Departments of Energy and 
Defense and their various agencies will play on this project? 
What about the General Services Administration? What about the 
national labs? Who will be responsible for bringing all of this 
together? And when will this be formally put on paper?
    Commissioner Bonner, as of just yesterday, the GAO told our 
staff that they still have not seen your comprehensive 
strategic plan.
    I am also quite confused about what role the Office of 
Homeland Security has played or is supposed to play in this 
endeavor. Until only recently, this office has remained absent 
from the stage. Why? Isn't this a key matter of homeland 
security? Wasn't this office created to help organize efforts 
such as this?
    Mr. Chairman, it should be a key question of this committee 
to examine why this office has not engaged more thoroughly on 
this important effort. While I agree that we need a Department 
of Homeland Security, I do not believe that in the meantime 
this project should receive short shrift or be policy--or not 
be policy coordinated.
    Mr. Chairman, let me conclude by saying that each day the 
President hints of a possible war with Iraq as a reason for 
this possible intervention, the President tells us that a rogue 
state like Iraq could develop such weapons and hand them off to 
terrorists. I agree with this logic. Where I depart is, I think 
we should be far more aggressive in our efforts to protect and 
secure our own backyard from this threat. I am confounded to 
see such confusion, and--I am comforted, though, to see some 
movement, but I believe that as we move forward, this effort 
needs to be far more coordinated and that resources, more than 
currently available, must be used.
    Mr. Chairman, I thank you for having this hearing. I want 
to thank you and your staff for the outstanding bipartisan work 
over the past 14 months that has truly been a commendable 
effort.
    Mr. Greenwood. The Chair thanks the gentleman, and 
recognizes the gentleman from Ohio, Mr. Gillmor, for an opening 
statement.
    Mr. Gillmor. Thank you, Mr. Chairman. I will be brief.
    I think one of the biggest threats to our Nation's security 
is the porousness of our borders, porous both in terms of 
people and the number of terrorists or potential terrorists 
that come in, and also porousness in regard to goods and 
potential weapons.
    We all know we have had a great proliferation of nuclear 
weapons around the world, with as many as 15 countries now 
possessing them. And, unfortunately, some of those countries do 
have ties to terrorist groups. It is vital that we have a 
rational and effective way to stop nuclear weapons from coming 
into the country; and I hope that the information gleaned from 
this hearing will help us in achieving that goal.
    And I thank you.
    Mr. Greenwood. The Chair thanks the gentleman, and 
recognizes for an opening statement the gentleman from 
Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. And thank you for 
holding this hearing on what I believe is one of the most 
significant national security issues this committee has 
considered this session.
    As you stated, Mr. Chairman, it is now 401 days since 
September 11. While there has been much discussion about the 
best method to deal with the threats against our country, there 
is no question that those threats do exist. The potential 
threat of biological, chemical, or nuclear materials smuggled 
across this country's borders is one of the threats that should 
be receiving the attention of the best scientific and defense 
minds in our country.
    There is no question in my mind about how seriously the 
members of this subcommittee on both sides of the aisle view 
this issue and this threat. There is no question about how 
strongly the members of this subcommittee question the 
effectiveness and timeliness of the efforts to protect our 
borders against this threat to date. And it is not a partisan 
issue, as this committee's work and this hearing shows. There 
is no question in my mind about the seriousness of this threat.
    I am also worried about the potential ease with which it 
might be accomplished. Therefore, I have many questions about 
the actions of those people and agencies charged with 
protecting our country's borders over the past 11 months, which 
I intend to explore during our closed session.
    I am not here to bash the Customs Service. As a Member of 
Congress from a district that has a Canadian point of entry at 
Sault Sainte Marie, Michigan, I know how much the Customs 
Service accomplishes with limited resources. The Service works 
24 hours a day, 7 days a week, often under trying conditions. I 
join Mr. Deutsch in conveying this subcommittee's appreciation 
and my appreciation on behalf of Michigan's First District for 
the work Custom employees do.
    In these new times, it is not realistic to expect the U.S. 
Customs Service to meet new threats and implement new 
technology without coherent direction and without the full 
support and authority of the President and the White House 
Office of Homeland Security. They must be more active on this 
matter. I do believe, however, that the Customs Service needs a 
better strategy to coordinate in our own country what the 
United States has done admirably overseas, like in the former 
Soviet Union, selecting and installing fixed radiation 
detectors at our ports and borders.
    The efforts of the Service over the past year have at times 
been slow and confusing. We have heard much from the President 
lately about the imminent threat of terrorist attacks. Why then 
is there not more being done from this administration for this 
critical border protection issue? Why do we hear 1 month that 
the Transportation Security Administration is in charge, and in 
another month that Customs is the lead agency? Why is there not 
more input, support and muscle devoted by the White House 
Office of Homeland Security to preventing smuggling of nuclear, 
chemical, and biological weapons and materials?
    I look forward to some clear answers from these witnesses 
today and to faster and better action on a problem that we may 
be facing in the future. The American people and the members of 
this subcommittee need our answers now. Mr. Chairman and 
Ranking Member Deutsch, thank you for your efforts and those of 
the staff in trying to study these critical issues and having 
this hearing. I look forward to the closed session later today.
    Mr. Greenwood. The Chair thanks the gentleman, and 
recognizes the gentleman from Florida, Mr. Stearns, for an 
opening statement.
    Mr. Stearns. Good morning and thank you, Mr. Chairman.
    I think all of us know that the breakup of the Soviet Union 
has led to inadequate security at many nuclear weapons 
facilities and fissile material stockyards. Despite U.S. 
efforts to guard Russian nuclear weapons material, experts from 
the Los Alamos National Laboratory estimated that, ``More than 
200 tons of fissile material remain largely unsecured.'' In 
addition to loose Russian material, the location of some U.S. 
sources lent to foreign countries is also uncertain. A March 
2002 Department of Energy Inspector General report concluded 
that the Department of Energy could not fully account for the 
sealed sources of nuclear material lent to foreign countries.
    And that leads me, Mr. Chairman, to go to the GAO report 
that was just released this morning where they talk about, to 
combat nuclear smuggling, the U.S. efforts are divided among 
six Federal agencies: DOE, the Department of State and Defense, 
Customs, the Federal Bureau of Investigation, the FBI, and the 
U.S. Coast Guard. So that, Mr. Chairman, shows you that we 
really don't have one central agency to do this. And that is in 
light of the fact from the GAO that the DOE installed 70 portal 
monitors at eight border crossings in Russia, an airport in 
Moscow, six seaports, and one railroad crossing, at a cost of 
$11.2 million. And--but the money is very small when you 
realize that the DOE officials, the portal monitors we have 
provided detected more than 275 cases involving radioactive 
material, including contaminated scrap metal, irradiated cargo, 
and other radioactive materials that could pose a proliferation 
concern.
    So think about that. These portals actually detected more 
than 275 cases. So these are real numbers, and it shows that we 
need in this country to consolidate and to continue to detect.
    Russian Customs officials told us that radiation detection 
equipment funded by DOE's Second Line of Defense has helped 
accelerate Russia itself in its program to improve border 
security. According to these officials, as of October 2001, the 
DOE has financed and purchased about 15 percent of Russia's 300 
portal monitors. The U.S.-funded equipment is manufactured in 
Russia to, among other things, facilitate maintenance, and DOE 
national laboratory personnel tests of portal monitors, to 
ensure that they are placed in optimal configurations.
    So we have something in place, as detecting 275 cases, that 
we have got to continue. And so I think, Mr. Chairman, the more 
that we can bring to light on this, the better.
    I yield back.
    Mr. Greenwood. The Chair thanks the gentleman, and 
recognizes the other gentleman from Florida, Mr. Bilirakis, for 
an opening statement.
    Mr. Bilirakis. Thank you very much, Mr. Chairman. And I 
definitely will be brief. This is certainly an important issue 
that deserves our attention, and we are all grateful to you for 
bringing it to our attention.
    After reviewing materials for today's hearing, I was very 
concerned to learn that none of the U.S. ports or border 
crossings with Mexico or Canada has the ability to detect the 
importation of nuclear materials or weapons. And since the U.S. 
Customs Service only inspects, as I understand it, 
approximately 2 percent of all cargo containers, our ports and 
border crossings are particularly vulnerable to terrorist 
activities.
    It bothers me, Mr. Chairman, that in our opening statements 
we are telling the terrorists or potential terrorists that we 
are vulnerable and the reason why we are vulnerable. That 
certainly bothers me; there is no question about that. Maybe 
there isn't any other way to go about it.
    We are anxious to learn what is being done to try to 
protect our ports and borders. And even more importantly, Mr. 
Chairman, I like to think that the witnesses who are before us, 
and the people who are in the field, know the issue so much 
better than we do. And I hope that you will take the 
opportunity here to not only tell us what you are doing, or 
trying to do or whatever, but also what you maybe can't do, and 
where legislation on our part will be helpful. In other words, 
I hope that you will basically tell us how we can help you do 
your job as well as I know you want to do it.
    Having said that, Mr. Chairman, I yield back.
    Mr. Greenwood. The Chair thanks the gentleman, and 
recognizes for an opening statement the gentleman from 
Kentucky, Mr. Whitfield.
    Mr. Whitfield. Mr. Chairman, thank you very much. And all 
of us are quite anxious to hear the testimony this morning.
    I don't think that there is any question but that the 
committee has expressed concern over the progress that is being 
made by the U.S. Customs office in taking the necessary steps 
to detect weapons coming into the U.S. or that may come in the 
U.S. And I know that there is also concern about the seeming 
reliance of the Customs agency on radiation pagers.
    And then when you think about the efforts that the National 
Nuclear Security Administration at DOE and the work that they 
are doing in Russia and the Second Line of Defense in which we 
are financing portal monitors at many sites in Russia, I think 
it is important that we take those same types of steps in the 
U.S.
    And so I do look forward to the testimony; it is certainly 
timely, and I appreciate the chairman holding this hearing.
    Mr. Greenwood. The Chair thanks the gentleman. And the 
Chair thanks all of the members who are here this morning. We 
recessed for 4 weeks, or at least to the call of the Chair, 
last night; and so this is not a session day, and many members 
had the opportunity to go home last night or this morning. And 
some had obligations that they had to attend. But we do thank 
those members who are here.
    [Additional statement submitted for the record follows:]
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce
    Thank you, Mr. Chairman, for holding this Subcommittee's second 
hearing on the threats posed to our fellow citizens from the all-to-
easy ability of terrorists to smuggle nuclear weapons or dirty bombs 
into this country. To many, the specter of a nuclear attack is the 
ultimate terror. While the Cold War has ended and the threat of large-
scale nuclear war has greatly diminished, the stakes are still 
frighteningly high. Vast amounts of unsecured nuclear weapons and other 
fissile materials are spread across the former Soviet Union. A recent 
GAO report on non-proliferation estimates that the former Soviet Union 
had about 30,000 nuclear weapons and over 600 metric tons of weapons-
usable material when it collapsed 10 years ago, with poor 
accountability mechanisms in place.
    Even more frightening than unsecured fissile material is the 
thought of terrorists obtaining a small, tactical nuclear weapon. It is 
estimated that close to 30% of the Russian arsenals consist of such 
weapons. Since no formal treaty governs these devices, accounting for 
them has proven difficult. Experts estimate that even one of ``moderate 
size'' could destroy a city. If terrorists obtain these weapons or even 
nuclear material, they could become capable of massive devastation on 
an unprecedented scale.
    We know terrorists are trying to get their hands on weapons of mass 
destruction. GAO has identified 20 instances of smuggling of weapons-
usable nuclear material since 1992. Weapons themselves also may be on 
terrorist radar screens. Former Russian National Security Advisor 
Aleksander Lebed claims that ``the Russian military had lost track of 
more than 100 suitcase-sized nuclear bombs, any one of which could kill 
up to 100,000 people.''
    Given such threats, the United States is faced with a tremendous 
challenge. However, the Committee's 14-month investigation into this 
issue has raised disconcerting questions about the way the Customs 
Service is proceeding in this serious undertaking. 401 days have passed 
since the attacks on 9/11, yet our ports and borders are NOT 
significantly more secure against nuclear smuggling than before the 
attacks.
    Experts working with the National Nuclear Security Administration 
have been installing nuclear detection equipment in Russia and the 
countries of the former Soviet Union for over a decade. Yet to date, 
there is not sufficient evidence that Customs is utilizing this 
expertise here at home, despite offers of assistance from Ambassador 
Brooks of the NNSA at our last hearing on this subject in July.
    It is for this very reason we all are here today. Are the true 
experts in nuclear detection equipment working with Customs to help 
safeguard our nation against nuclear terrorism? Why has Customs created 
an exclusive partnership with DOE's Pacific Northwest National 
Laboratories to the exclusion of the NNSA labs with more expertise? 
While this lab houses excellent minds, it is not one of the NNSA labs 
specializing in addressing the nuclear threat. And does Customs have a 
credible and comprehensive plan for expeditiously improving the 
situation at our ports and borders?
    It is imperative that the Congress receive a complete and accurate 
accounting of how Customs is addressing the threat of nuclear 
terrorism. It also is imperative for the Senate to follow the lead of 
this House in passing the President's plan for a new Homeland Security 
Department. The stakes are too high to allow bureaucratic infighting 
and turf wars to impede our ability to prevent nuclear terrorism.

    And that brings us to our witnesses. And again, we thank 
all of you for being with us. Let me introduce our panel.
    We are delighted to have the Honorable Robert Bonner, 
Commissioner, the United States Customs Service.
    Good morning, sir. Good to have you with us.
    We also have Ambassador Linton Brooks, Acting Administrator 
of the National Nuclear Security Administration.
    Good morning, Ambassador.
    And Dr. Stephen Younger, who is the Director of the Defense 
Threat Reduction Agency, good morning to you.
    We have Gary Jones, who is from the General Accounting 
Office. She is the Director of Natural Resources and 
Environment. She will be testifying at the open portion of this 
hearing.
    And also we are delighted to have Dr. Laurie Ekstrand, who 
is the Director for Tax Administration and Justice Issues at 
the USGAO, and she will be testifying, as I understand it, in 
the closed portion of our hearing.
    Good morning to both of you.
    And we are also delighted to have the Honorable Jeffrey 
Rush, Jr., Inspector General from the United States Department 
of Treasury.
    Thank you again.
    I should inform you that this is an investigative hearing. 
It is our practice to take testimony under oath during an 
investigative hearing. And I would ask if any of you have any 
objections to offering your testimony under oath this morning.
    Seeing no such objection, the Chair would then advise you 
that, pursuant to the rules of this committee and pursuant to 
the Rules of the House, you are each entitled to be represented 
by counsel if you choose this morning. Do any of you choose to 
be represented by counsel?
    Seeing no such desire, I would ask you to please stand and 
raise your right hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Greenwood. Okay. You are under oath.
    And before I ask you to begin your opening statement, 
Commissioner Bonner, let me give you some praise, because you 
probably have noticed we are going to be offering some 
criticism as well. But we do--we are aware of the Container 
Security Initiative and the Customs Trade Partnership Against 
Terrorism as long-term solutions in the threat of nuclear 
terrorism. We commend you for those efforts and thank you for 
those efforts, and recognize you for your opening statement, 
sir.

TESTIMONY OF HON. ROBERT C. BONNER, COMMISSIONER, UNITED STATES 
CUSTOMS SERVICE; LINTON BROOKS, ACTING ADMINISTRATOR, NATIONAL 
NUCLEAR SECURITY ADMINISTRATION; STEPHEN M. YOUNGER, DIRECTOR, 
   DEFENSE THREAT REDUCTION AGENCY; GARY L. JONES, DIRECTOR, 
  NATURAL RESOURCES AND ENVIRONMENT, ACCOMPANIED BY LAURIE E. 
EKSTRAND, DIRECTOR, TAX ADMINISTRATION AND JUSTICE ISSUES, U.S. 
  GENERAL ACCOUNTING OFFICE; AND JEFFREY RUSH, JR., INSPECTOR 
            GENERAL, U.S. DEPARTMENT OF THE TREASURY

    Mr. Bonner. Thank you, Mr. Chairman, and Congressman 
Deutsch and members of the subcommittee. And I want to thank 
you for this opportunity.
    Mr. Greenwood. I think you have got to push the button on 
your microphone there, sir.
    Mr. Bonner. Let's try that. Does that help?
    Anyway, thank you, Mr. Chairman, and Congressman Deutsch, 
members of the committee. I appreciate the opportunity to 
have--to come before this subcommittee to advise you in terms 
of the steps that Customs has taken and is taking to combat 
nuclear terrorism.
    I should begin by telling you that the highest priority of 
the United States Customs Service is combating terrorism, and 
within that, that would include preventing nuclear and 
radiological weapons from entering the United States. That is 
our highest priority.
    I believe that Customs does have a strategic plan for 
dealing with the nuclear--the threat of nuclear terrorism. As 
set forth in my September 18, 2002, letter to the full 
Committee on Energy and Commerce, Customs has developed and is 
implementing a multilayered, multitechnology defense in-depth 
strategy in order to prevent terrorist weapons, and 
particularly including nuclear and radiological weapons, from 
entering our country. Mr. Chairman, I would ask that my letter 
of September 18 be made part of the record of this hearing.
    Mr. Greenwood. Without objection, it will be.
    Mr. Bonner. I understand that this subcommittee, listening 
to the statements, has a very understandable interest and 
concern with respect to what Customs is doing at the U.S. ports 
of entry; however, as I have outlined in my September 18 
letter, an important part of our strategy to address the 
nuclear threat is pushing our zone of security outwards, it is 
pushing our borders outward, so that our borders, our ports of 
entry in the United States are the last line of defense, not 
the first line of defense, against this threat--particularly 
this threat.
    As you mentioned, Mr. Chairman, I thank you for mentioning 
it, two Customs-led initiatives. The Container Security 
Initiative and the Customs Trade Partnership Against Terrorism 
are major parts of this strategy, as well as, by the way, U.S. 
Customs participation with the Department of Energy and the 
Export Control and Border Security Program in Central Asia and 
in Eastern European countries, countries--some of the countries 
of the former Soviet Union, as well as Project Shield America. 
But I am not going to go into detail on any of those programs 
or in my prepared statement and also my September 18 letter.
    Let me talk about the U.S. ports of entry. Customs 
currently uses several technologies in combination to detect or 
to assist in detecting nuclear and radiological weapons. 
Because there is a risk that international terrorists can 
defeat any single censor or detection device, Customs does not 
rely on any one detection technology. Rather, Customs uses 
several technologies in order to increase its ability to detect 
nuclear material.
    I don't agree with the statement that is made that Customs 
lacks--hasn't made any progress on this, or that Customs has 
taken no action since September 11 of last year. Let me, first 
of all, say that--outline quickly what Customs has done at our 
ports of entry.
    First, the process begins with targeting. U.S. Customs 
automated targeting system assists U.S. Customs personnel in 
identifying cargo shipments that pose a potential threat for 
terrorist weapons. Cargo identified as posing a potential 
threat is then screened for security purposes.
    Second, Customs has already deployed detection technology. 
In fact, we have deployed so far to our seaports and land 
borders 96 large-scale X-ray and gamma ray imaging systems that 
assist U.S. Customs inspectors in screening cargo containers 
and commercial vehicles for potential terrorist weapons, 
including nuclear weapons and radiological materials. These 
systems can detect differences and do detect differences in 
density, and are capable of detecting even lead-shielded 
materials.
    Second, in addition, Customs has already deployed over 
5,000 personal radiation detectors that provide radiation 
detection coverage. In closed hearing, we can go into the 
details of the pros and cons of this. But we have deployed over 
5,000 radiation detection devices that provide coverage at 
every single port of entry into the United States, all 301 of 
them.
    Moreover, U.S. Customs has deployed over 200 X-ray van-
mounted radiation detection units, which can detect radiation 
in small packages passed through the X-ray van. Customs has 
ordered approximately 400 isotope identifiers, at least one 
that we deem to be deployed to each of the ports of entry into 
this country.
    So, there is some capability to detect nuclear materials at 
U.S. ports of entry, but to further augment our nuclear 
detection capabilities, adding an additional layer to our 
existing capabilities we are--as you know, Mr. Chairman, we are 
also acquiring and deploying portal radiation detectors.
    In January 2002, I identified and set aside funding from 
the emergency supplemental to purchase 172 portal radiation 
detector systems. That funding was not released, as I think you 
know, until March of this year. I expect that we will--well, 
first of all, we have, as I believe this committee--
subcommittee knows, we have recently ordered and are awaiting 
delivery of 40 portal radiation detector devices, and I expect 
that we will proceed to acquire additional portal radiation 
detectors within the next several weeks. These systems are 
being and will be deployed as rapidly as the manufacturer can 
build them.
    I should also note that in late January 2002, Customs 
contracted with one of the national laboratories, Pacific 
Northwest National Laboratory, to help us identify equipment, 
conduct a market survey, conduct site surveys, and physically 
deploy portal radiation detectors. It was following PNNL's 
market survey and recommendations and assistance from the 
Department of Energy, with whom we are working closely, that 
Customs purchased the 40 commercial off-the-shelf portal 
radiation detection systems for our ports of entry.
    Our close cooperation with the Department of Energy 
includes working in conjunction with the National Nuclear 
Security Administration. Ambassador Brooks and his staff--let 
me just say this--at NNSA have been particularly helpful in 
enabling us to fuse together the combined nuclear expertise of 
the Department of Energy as well as several of the other 
national laboratories.
    We have also worked closely with the Office of Homeland 
Security and in particular General Bruce Lawler of OHS, who has 
been of immense assistance to me and the U.S. Customs Service 
in respect to this issue.
    We have completed site surveys at all international mail 
and express consignment courier facilities, and we will 
complete site surveys at all major northern border and ports of 
entry and seaport locations over the next 2 months, and I can 
assure this committee we are moving forward with the deployment 
of portal systems at key ports of entry, particularly at the 
northern border and at our seaports.
    Thank you, Chairman Greenwood and members of the 
subcommittee. I would be happy to answer any questions at the 
appropriate time.
    [The prepared statment of Hon. Robert C. Bonner follows:]
Prepared Statement of Hon. Robert C. Bonner, Commissioner, U.S. Customs 
                                Service
    Good morning Chairman Greenwood, members of the Subcommittee. Thank 
you for this opportunity to testify, and to update you on steps the 
U.S. Customs Service is taking to address the threat of nuclear 
terrorism.
    First of all, let me assure you that preventing the smuggling of 
nuclear weapons and radiological materials is the highest priority of 
the U.S. Customs Service. As set forth in my September 18 letter to the 
Committee on Energy and Commerce, we have developed and are 
implementing a multi-layered, defense in depth strategy designed to 
prevent nuclear weapons and radiological materials from entering the 
United States.
    I understand that the Subcommittee has great interest in what the 
U.S. Customs Service is doing at our ports of entry into the United 
States; however, an important part of our strategy to address the 
nuclear and radiological threat is pushing our zone of security outward 
so that American borders are the last line of defense, not the first 
line of defense against such a threat. Two U.S. Customs initiatives 
that help extend our zone of security against the threat of nuclear 
terrorism are the Container Security Initiative (CSI) and the Customs-
Trade Partnership Against Terrorism (C-TPAT).
    The specific purpose of CSI is to prevent terrorists from using 
cargo containers to conceal nuclear weapons or radiological materials. 
With CSI, we are partnering with foreign governments to target and 
screen high-risk containers for nuclear and radiological materials 
using technology before the cargo is shipped to U.S. ports. The 
targeting aspect of CSI involves using sophisticated automated 
targeting technology to identify high-risk containers, those that may 
contain terrorist weapons or even terrorists. U.S. Customs' Automated 
Targeting System (ATS) processes manifest information regarding the 
containers, the information is scored, and a risk assessment is made in 
a very short time frame--just a few seconds. The screening aspect of 
CSI involves using radiation detectors and large-scale x-ray and gamma 
ray machines to examine containers designated as high risk. In 
combination, these technologies are capable of detecting nuclear or 
radiological materials.
    Since I announced CSI last January, CSI has generated exceptional 
participation and support. The initiative has become an important part 
of President Bush's National Strategy for Homeland Security, and 7 
countries, representing 11 of the top 20 ports that ship to the U.S., 
have already agreed to implement CSI with us. I expect additional 
countries to join CSI shortly.
    I should note that because CSI involves getting and using 
information about containers before the containers leave the foreign 
port, the advance transmission of complete, accurate vessel cargo 
manifest information to Customs is essential to the success of CSI. 
Advance transmission of such accurate and complete information is also 
essential to overall successful targeting of high-risk cargo containers 
from any port, because the better the information and the sooner we 
have it, the more effective and efficient U.S. Customs can be in 
identifying high-risk cargo and screening those shipments for nuclear 
and radiological material. Therefore, Customs proposed a regulation 
requiring the presentation of accurate, complete manifest information 
24 hours prior to lading at the foreign port, and eliminating vague 
descriptions of cargo, such as FAK (Freight of All Kinds). We have 
received comments on the regulation, which we are carefully 
considering, and we look forward to issuing a final regulation shortly.
    Our Customs-Trade Partnership Against Terrorism is another 
initiative designed to further reduce the risk that terrorist weapons, 
including nuclear or radiological materials, could be concealed in 
cargo shipped to the United States. The idea behind C-TPAT is that by 
partnering with the trade community--U.S. importers, customs brokers, 
carriers, and others--we can better protect the entire supply chain 
against potential exploitation by terrorists or terrorist weapons, by 
providing increased security from foreign loading docks all the way to 
the U.S. border and seaports. To date, over 850 companies have agreed 
to participate in C-TPAT.
    Customs' efforts to push the zone of security outward also involve 
working in conjunction with other U.S. and international agencies to 
prevent adversaries from illegally acquiring sensitive technology and 
components needed to assemble a nuclear or radiological weapon. One 
aspect of our efforts on this front is Project Shield America, under 
which Customs agents are working diligently to monitor exports of 
strategic weapons components and sensitive materials from the U.S.
    Another example of our efforts to deny access to nuclear weapons or 
materials is the Customs Export Control and Border Security Program 
(EXBS), which provides equipment, training, and advisors to assist 
foreign governments' border and customs agencies in detecting, 
identifying, interdicting, and investigating any nuclear weapons and 
weapons grade materials at their own borders, before such materials 
fall into hostile hands or arrive in America.
    I have outlined some of the key layers within our strategy for 
nuclear and radiological threat detection that are designed to make our 
borders the last line of defense, not the first line of defense. Now, 
let me tell you what we are doing at the physical borders.
    At our borders, we currently deploy multiple technologies to 
support our layered detection process. Because of the risk that an 
adversary can defeat any single sensor or device, Customs does not rely 
on any single detection technology. Instead, Customs uses various 
technologies in different combinations in order to substantially 
increase the likelihood that nuclear or radiological material will be 
detected.
    The process begins with targeting. As I mentioned earlier, U.S. 
Customs' Automated Targeting System assists Customs in identifying 
cargo that poses a potential threat for terrorist weapons, including 
nuclear or radiological material. Cargo identified as high risk is then 
screened for security purposes. Customs has deployed to seaports and 
land border ports of entry, 96 large-scale x-ray and gamma ray systems 
that assist inspectors in screening cargo containers and conveyances 
for potential terrorist weapons, including nuclear weapons and 
radiological materials. We are continuing to acquire and deploy more of 
these systems to additional strategic locations. In addition, Customs 
also has deployed over 5,000 personal radiation detectors to provide 
coverage at every port of entry into the U.S. Moreover, Customs has 
deployed over 200 x-ray van mounted radiation detection units, which 
can detect radiation in small packages passed through the x-ray van. We 
are also in the process of obtaining over 4,000 additional personal 
radiation detectors to equip every Customs inspector and Canine 
Enforcement Officer with one. Customs also has ordered approximately 
400 isotope identifiers.
    To further augment our nuclear and radiological detection 
capabilities, adding an additional layer to the screening process, we 
are also deploying portal radiation detectors. In January 2002, I 
identified funding from the Emergency Supplemental to purchase 172 
portal radiation detectors. We are currently awaiting delivery of 40 
portal radiation detectors. This month, we will put out another RFP for 
numerous additional portal radiation detectors. These systems are being 
and will be deployed as rapidly as the manufacturers build them.
    In January 2002, Customs contracted with Pacific Northwest National 
Laboratory (PNNL) to help us identify equipment, conduct a market 
survey, conduct site surveys, and physically deploy portal radiation 
detectors. Following PNNL's market survey, and recommendations from the 
Department of Energy (DOE), with whom we are working closely to further 
enhance the security of our country, Customs purchased commercial off 
the shelf (COTS) portal radiation detection systems for our ports of 
entry.
    In May 2002, working with manufacturers of portal radiation 
detectors, we implemented a portal radiation detection pilot program to 
provide operational experience on portal radiation detector equipment 
requirements and logistics, as well as to develop operational 
procedures and response protocols.
    Our close cooperation with DOE includes working in conjunction with 
the National Nuclear Security Administration (NNSA). Ambassador Brooks 
and his staff at NNSA have been particularly helpful in enabling us to 
fuse together the combined nuclear expertise from several other 
national laboratories.
    We have completed site surveys at all international mail and 
express consignment courier facilities and we will complete site 
surveys at all major northern border and seaport locations by December 
20, 2002. Isotope identifier training for our officers and radiation 
training for our forensic scientists is also underway. As we continue 
to move forward with our deployment and training, we are completing, in 
coordination with the Office of Homeland Security, national standard 
operating procedures and response protocols.
    Thank you again, Chairman Greenwood, and the members of the 
Subcommittee, for this opportunity to testify. I would be happy to 
answer any questions you may have.

    Mr. Greenwood. Thank you, Mr. Commissioner.
    Ambassador Brooks, you are recognized for your testimony 
and opening statement.

                   TESTIMONY OF LINTON BROOKS

    Mr. Brooks. Thank you, Mr. Chairman----
    Mr. Greenwood. You are going to have to get a microphone in 
front of you.
    Mr. Brooks. My colleagues will tell you, I so seldom need 
amplification.
    Mr. Chairman, members of the subcommittee, I appreciate the 
opportunity to discuss the important topic of protecting the 
homeland and the borders. As you know, and as you alluded to in 
your opening statement, the administration believes that it is 
precisely for this reason that the prompt passage of the 
Homeland Security Act is so important. The President's proposal 
when enacted will help us draw together disparate elements of 
the government.
    Until that time all elements of the government in the 
aftermath of September 11 have been seeking to improve their 
coordination with one another. In particular, since my last 
appearance before this subcommittee, the National Nuclear 
Security Administration has accelerated its efforts to join 
with others to help shield the United States from weapons of 
mass destruction. I need to point out that that is not our 
primary mission. Our--we have a number of missions. We seek to 
maintain the safety and reliability of the nuclear weapons 
stockpile. We seek to meet national security requirements 
through nonproliferation abroad. We seek to preserve the naval 
nuclear propulsion capability of the United States. We seek to 
support U.S. leadership in science and technology.
    So we don't have any specific responsibilities for border 
security, but we have experience and expertise that we believe 
is useful, and we have sought to make it available. What I 
would like to do is update you on what we have done recently 
since my last appearance before you.
    We have a long tradition of providing technical expertise 
to other U.S. agencies that don't have it organically. It is a 
technology push approach that is not codified in our mission or 
in law, but has proven to be useful over the years.
    To give you some example of the breadth, let me point out 
several things that we have been doing recently relevant to 
homeland security, and then I will speak more specifically 
about what we have been doing to try to help Customs.
    We recently completed a deployment of our prototype basis 
biological agent detection system to support Secret Service 
activities surrounding the United Nations in August. We are 
assisting the Coast Guard in developing a program to train and 
equip boarding parties with radiation detection. We are working 
with Coast Guard strike teams to develop postevent response 
plans. We support the FBI in its role as lead Federal agency in 
responding to a possible nuclear terrorist incident. We have 
trained about 100 FBI special agent bomb technicians in 
radiation detection and identification in the process to tap 
the expertise of the national laboratories. And within a very 
short time after this training, the agents were able to use 
their new skills in real-world incidents--fortunately, none of 
them actual nuclear threats--involving suspicious vehicles and 
packages.
    As part of our Radiological Assistance Program, personnel 
from Brookhaven National Laboratory have been in essentially 
continuous liaison with the New York City Office of Emergency 
Management, with the police, and with the Joint Terrorism Task 
Force, and we have had some part-time detailees advising the 
Office of Emergency Management in New York on management of 
radiological events.
    Now, I make those points because they are illustrative of 
the fact that we are trying to spread our technical knowledge 
where it will be useful. Let me turn directly to what we have 
been doing to support Customs.
    Broadly speaking, we have tried to be of assistance in two 
areas: First, our Office of International Material Protection 
and Cooperation, which runs the programs in Russia that several 
of the members alluded to in their opening statement, has been 
working to share the lessons that it has learned to--in 
protecting borders with the Customs Service. We have developed 
and are implementing a series of training courses for Customs 
officials that draw on the operational insights gleaned from 
working at monitoring sites abroad. I need to remind you a 
little bit about what that overseas program is.
    We have merged our so-called Second Line of Defense border 
monitoring efforts with our First Line of Defense, which is 
protection of nuclear materials. We have done that so that we 
make sure we have an integrated approach in Russia. I tend to 
think that protecting the homeland is best done as far away 
from the homeland as possible, and so we have deployed a number 
of portal monitors, as many of the committee have referred to, 
and we backed up those with training for our colleagues in the 
Russian Customs Service.
    Now, it is important to understand that we have been at 
that for 5 years. It takes time to develop an operational 
concept. It takes time to develop procedures. And so it isn't 
simply a question of how fast can you install a particular 
piece of equipment. It is how fast can you put in place a 
system into which that piece of equipment supports. We are 
continuing to work in this area, and we are trying to feed back 
the lessons that we have learned into our work with Customs.
    The second area that we have been trying to help is more 
recent and, of course, involves technology. As the Commissioner 
mentioned, the Customs Service identified several technical 
areas where expertise would be useful. We have joined in 
discussions between the FederalExpress and UPS on what 
appropriate technology should be used for monitoring. We have 
provided technical advice on portal monitoring equipment. Our 
nuclear emergency support team has worked with Customs 
laboratory support services in technical assessments of 
maritime operations. We have tested some commercial off-the-
shelf technologies at the cargo container test facility at 
Lawrence Livermore National Laboratory, I believe also referred 
to in one of the opening statements. And the Customs Service 
has hosted multilaboratory teams at several border sites so 
that we understand the complex procedures of Customs' daily 
operations so that our recommendations will fit technology into 
the operations.
    I think all of us at this table, and certainly all of us at 
NNSA, recognize that securing the borders is a daunting task. 
We have some assets and capability, and we are very proud to be 
working with the Customs and are committed to continue to 
provide the technological support wherever we can.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Linton Brooks follows:]
  Prepared Statement of Linton F. Brooks, Acting Under Secretary for 
   Nuclear Security, Acting Administrator, National Nuclear Security 
               Administration, U. S. Department of Energy
    Mr. Chairman, members of the Committee. Thank you for the 
opportunity to discuss the important topic of protecting our homeland--
and especially our borders--from weapons of mass destruction. As you 
know, the Administration believes that the ultimate solution to the 
problem is the prompt passage of the Homeland Security Act. The 
President's proposal will draw together the many disparate elements of 
our government to ensure an integrated approach to this new mission.
    Pending the formation of the new Department of Homeland Security, 
all agencies of the U.S. government have been seeking to improve their 
cooperation with one another. In particular, since my last appearance 
before this committee, the National Nuclear Security Administration 
(NNSA) has accelerated its efforts to join with others to shield the 
United States from the threat of weapons of mass destruction (WMD). The 
NNSA mission is several-fold. We seek to maintain and enhance the 
safety, reliability, and performance of our nuclear weapons stockpile, 
in order to meet national security requirements; to promote 
international nuclear nonproliferation while reducing the global danger 
from weapons of mass destruction; and to support U.S. leadership in 
science and technology. Thus we have no specific responsibilities for 
border security. We do, however, have experience and expertise that we 
believe is relevant and we have sought to make it available. I want to 
take this opportunity to update you on recent events since my last 
appearance before this committee.
                            general support
    The NNSA has a long tradition of providing technical expertise in 
our field to other U.S. agencies that do not organically possess it. 
This ``technology push'' is not specifically part of our mission, but 
we believe it serves the best national security interest of the United 
States. To illustrate the breadth of these efforts, let me first 
provide some examples that do not directly relate to border security:

<bullet> Our Office of Nonproliferation Research and Engineering has 
        recently completed a short deployment involving our prototype 
        BASIS biological agent monitoring systems to support the Secret 
        Service's activities surrounding the United Nations' meetings 
        in August.
<bullet> Additionally, the NNSA is assisting the U. S. Coast Guard in 
        developing a program to train and equip boarding parties with 
        radiation detection equipment and response procedures. We are 
        also working with their Strike Teams to develop post-event 
        response plans.
<bullet> We support the FBI in its role as Lead Federal Agency in 
        responding to a potential nuclear terrorist incident within the 
        United States. The NNSA Office of Emergency Response trained 
        approximately 100 FBI Special Agent Bomb Technicians, in 
        radiation detection, identification and the process to tap the 
        expertise of the national laboratories. Within one week of this 
        training, these agents successfully applied their new skills in 
        several real world incidents involving suspicious vehicles and 
        packages.
<bullet> As part of the NNSA's Radiological Assistance Program, 
        personnel from the Brookhaven National Laboratory have 
        maintained nearly continuous liaisons with the New York City 
        Offices of Emergency Management, Police, and the Joint 
        Terrorism Task Force. In addition, part-time detailees advise 
        New York Office of Emergency Management regarding the 
        development of new policy and procedures for managing a 
        potential radiological event.
                           support to customs
    Let me turn to our direct support of Customs. This has come in two 
forms. First, our Office of International Material Protection and 
Cooperation has worked to share its lessons learned from its 
international work with those charged with protecting and monitoring 
our borders. Our experts have developed and are implementing a series 
of training courses for Customs officials in Washington state that draw 
upon the operational insights gleaned from working at dozens of 
monitoring sites abroad.
    To understand what we have to offer, let me briefly review our 
international efforts to prevent weapons of mass destruction--or the 
materials to create them--from coming into our country. Our Second Line 
of Defense (SLD) Program is responsible for this effort. We have 
integrated this program into our overall Material Protection, Control, 
and Accounting (MPC&A) program to more closely align our work at 
Russian nuclear sites--our first line of defense--with SLD's border 
monitoring work at Russian borders, airports and seaports. This 
organizational arrangement represents NNSA's strategy to build a 
layered defense against the theft or diversion of nuclear or 
radiological materials. I would maintain that the protection of U.S. 
borders really begins thousands of miles from our shores.
    Our Second Line of Defense Program has been highly successful, 
deploying roughly 250 portal monitors in Russia capable of detecting 
even small amounts of nuclear or radioactive materials. We back up 
those deployments with an extensive training program to ensure that our 
partners in the Russian Customs Service understand how to operate the 
equipment as well as how to respond to alarms triggered by smuggling 
attempts. This strong cooperative relationship with the Russian Customs 
officials also provides us valuable insights into the location, scope 
and nature of smuggling attempts.
    As is the case with many of our programs, I would underscore that 
the progress I have just described did not materialize overnight. The 
SLD program was created five years ago in response to our concerns 
about the enormous amount of nuclear materials in Russia, the 
vulnerability of those materials to diversion, and the demonstrated 
interest of terrorist organizations and rogue nations in acquiring 
those materials. With the support of President Bush, Secretary of 
Energy Abraham and the Congress, we plan to expand this program into 
Kazakhstan and Ukraine over the next twelve months. We plan to embark 
on a joint DOE-Customs-Transportation project to monitor the shipments 
from international ports that ship goods directly to the United States. 
I expect this work to begin within the next several months, which will 
represent a major interagency effort to enhance our border security. As 
we work to establish more robust programs in the United States, an 
important lesson is that a successful program represents a sustained 
effort.
    A second area in which NNSA has sought to assist customs is in the 
field of technology. In the past few months, the Customs Service has 
identified several technical areas where NNSA expertise would be 
useful. For example, we joined in discussions between Customs and the 
Overnight Express and Consignment Carriers (Federal Express and UPS). 
We have provided technical advice on portal monitoring performance to 
support their proactive efforts to install radiation detection systems 
at their foreign operations. Also the NNSA Nuclear Emergency Support 
Team joined Customs' Laboratory Support Services program in tactical 
assessments of maritime operations under Operation Guardian.
    We have tested commercial off-the-shelf technologies (COTS) 
currently used by Customs against nuclear targets at our Cargo 
Container Test Facility at the Lawrence Livermore National Laboratory. 
The Customs Service recently hosted multi-laboratory teams at several 
border sites in an effort to broaden our awareness of Customs' complex 
daily operations. With this increased understanding, we are better able 
to provide recommendations on how to integrate radiation systems into 
their daily operations
                               conclusion
    We all recognize that securing U.S. borders is a daunting task. 
NNSA has unique assets and capabilities that have developed primarily 
from our work with nuclear weapons and in nonproliferation activities. 
Defending the homeland has always been part of our mission. We are 
proud to be working along side of those agencies whose missions stand 
forever changed by September 11th. All of us at the NNSA are committed 
to continuing to provide enabling science and technology in support of 
homeland security and counter-terrorism mission needs.
    Thank you, and I look forward to your questions.

    Mr. Greenwood. Thank you, Ambassador.
    Dr. Younger.

                 TESTIMONY OF STEPHEN M. YOUNGER

    Mr. Younger. Mr. Chairman and members of the committee, 
thanks for the opportunity to be with you today. I ask that my 
written statement be included in the record.
    I am the Director of the Defense Threat Reduction Agency. 
We are a combat support agency in the Department of Defense, 
and our job is to reduce the threat of weapons of mass 
destruction, nuclear, chemical, biological, radiological, and 
also large quantities of high explosives.
    The detection of nuclear material is a difficult challenge, 
and success will depend on the quantity and the type of 
material that you are looking for, the degree of shielding that 
is used by the adversary, the quality of the detection 
apparatus, and also the search methods that are used.
    I should say at the outset that we need to be realistic 
about our prospects. Today we don't have the methods that are 
adequate to address many realistic scenarios for nuclear 
material smuggling. It is also not clear to me that we will 
ever have a foolproof or a leakproof shield for the United 
States. We can do better than we are doing today, but we have 
to be realistic about our prospects.
    Also, as Ambassador Brooks indicated, I think we need a 
comprehensive system, it's not just detectors. And the system 
starts at the source. We need to control the material at the 
source, be it in another country or in the United States. There 
are systems which I will talk about in a minute that have 
already been used in Russia.
    I think we also need to have means to control the search 
for the material during all phases of transport, including 
loading of shipping containers in ships; transport, that is 
while it is being transported so something is not inserted at 
that point; and also when it arrives, in case we miss it in the 
previous two stages.
    We need to have a search and a neutralization capability so 
that if it does come into the country, we can find it; and, if 
we do find it, we know what are we going to do with it. And 
then finally, if we don't find it in time, we need to have a 
consequence management capability. That is a defense-in-depth 
or a system-of-systems approach.
    Now, the Defense Threat Reduction Agency is involved in 
many of these areas. We start by doing arms control inspections 
to make sure that other countries are abiding by the treaties 
that they signed, and we, too, help Customs Services and border 
guards of countries in the former Soviet Union to help them 
install technology to detect the smuggling of nuclear 
materials.
    We execute the Cooperative Threat Reduction Program, also 
called the Nunn-Lugar Program, to help build more secure 
storage for former Soviet materials.
    We have an ``uncooperative'' threat reduction program; that 
is, the development of new weapons to destroy weapons of mass 
destruction should we encounter them on the battlefield. In 
case they get through, we have a Chemical-Biological Defense 
Program to develop new technologies to protect our forces in 
the field. And then, finally, we provide a wide range of 
services to the combatant commands, including vulnerability 
assessments of facilities around the world, including, I might 
add, this building. And we work with the U.S. Coast Guard, the 
National Guard, and participate in various programs with the 
Customs Service.
    There are various technologies for detecting nuclear 
materials. All of them could stand improvement. Pagers can 
detect weapons quantities of materials at a range of yards. 
Hand-held devices can work at ranges up to tens of yards. And 
large fixed-installation detectors can be used to screen 
automobiles and trucks, and they can work up to hundreds of 
yards in some cases.
    But these are figures for unshielded material. The problem 
occurs when shielding is used, things like lead for X-rays and 
gamma rays, and even plastic for neutrons. When the material is 
shielded, then the detection ranges drop dramatically to the 
point where even large detectors may have a problem in picking 
up the telltale radiation of nuclear materials. And the reason 
for this is simple. If you are using passive sensors, the 
material has to emit something, and that something has to get 
to your detector in order for the detector to register 
something. It is like listening for a very quiet submarine. The 
quieter the submarine is, the harder it is to find it. So 
finding shielded material is a real challenge.
    We do not have in-house laboratories of our own, so our 
approach is to go to industry, to national laboratories, to 
academia and find the best technology that we can, to evaluate 
that technology in practical testbeds, and then to pick the 
best of it for our applications.
    In addition to the type of detectors that I have mentioned 
so far, we are also looking at active interrogation methods, 
that is, sending out a small pulse of radiation to stimulate 
the nuclear material to emit something and to improve your 
chances of detection, and we are also looking at X-ray methods. 
But neither of those are foolproof, and they all have their 
disadvantages.
    One thing that we are doing that we found quite effective, 
in the establishment of a testbed at the Kirtland Air Force 
Base in New Mexico. We put many of these technologies into 
actual operation at three of the gates of this large Air Force 
base. We have a dedicated testbed inside the base, because it 
is not just the technology. Sometimes things will work well in 
the laboratory, but then when you get them out into the field, 
they have problems. So we need to know, does it work in the 
rain? Does it work when it gets dirty? Does it work when the 
batteries are low? Can you train a 19-year-old to use this 
reliably? Where should you place the detectors for best 
efficiency? What do the inspectors do when they get an alarm? 
What kind of search procedures should you use if you find a 
positive signature in a truck or a car? How should a suspicious 
device be disabled? How do you know if it's booby-trapped? And 
so on.
    So it's the operational issues that are almost as complex 
as the technical issues associated with the detector. So for 
that reason I say that the likelihood of developing a foolproof 
detector any time soon is low. It is a big country, and the 
detector range is quite limited. I believe that this is a 
national problem. It demands a national solution. I think it is 
essential that we involve industry, science, and government in 
constructing this solution. I personally am encouraged by the 
discussions that I have had with the Coast Guard and the 
shipping industry in their dedication in solving this problem. 
We have a long way to go, but I think we are making important 
progress. Thank you.
    [The prepared statement of Stephen M. Younger follows:]
    Prepared Statement of Stephen Younger, Director, Defense Threat 
                            Reduction Agency
    Mr. Chairman, it is an honor to be here today and to have this 
opportunity to tell you about the Defense Threat Reduction Agency. I 
would like to summarize my remarks and request that my full statement 
be included in the record.
    We have a simple yet challenging mission--making the world safer by 
reducing the threat posed by weapons of mass destruction or ``WMD.'' As 
a Combat Support Agency within the Department of Defense, DTRA uses a 
full spectrum of tools to reduce the WMD threat

<bullet> arms control;
<bullet> cooperative threat reduction;
<bullet> technology development (offense and defense);
<bullet> defense against chemical, biological, radiological, nuclear, 
        and high explosive weapons; and
<bullet> combat support.
    DTRA arms control activities tackle the threat at its source. We 
implement intrusive arms control inspections to fulfill US treaty 
obligations. Being able to see on the ground what is available to other 
nations is a valuable defense investment. Additionally, through the 
International Counterproliferation Program, DTRA has partnered with the 
FBI and the Customs Service to enhance border security across the 
former Soviet Union to help prevent WMD and special material smuggling.
    We have responsibility for executing the Cooperative Threat 
Reduction or ``Nunn-Lugar'' program. Through this program, DTRA 
enhances Russian nuclear weapon storage and transportation security 
while eliminating strategic bombers, missiles, and submarines. To date, 
we have eliminated the delivery platforms of over 5800 Soviet nuclear 
weapons.
    If we cannot verify that WMD do not exist or are being dismantled 
voluntarily, we need the means to destroy or neutralize them by taking 
the fight to the enemy. Through its technology development programs, 
DTRA is the near-term interface between R&D and the warfighter. We 
integrate technology from all sources--US Government agencies, the DOE 
National Labs, academia, and the private sector--into products and 
tools that permit the warfighter to destroy WMD stocks, WMD-related 
production facilities, and hardened and deeply buried targets. For 
example, over the past year DTRA rapidly developed thermobaric tunnel-
busting weapons and cruise missile penetrator warheads--both in near-
record time.
    We must assume that, in some situations, an adversary will be 
successful in delivering a WMD attack against our military forces. DTRA 
has important roles in nuclear, chemical, and biological defense. For 
example, we assist the combatant commanders in planning how to 
successfully operate through contaminated environments. We also are 
developing an unconventional nuclear warfare protection system and 
chemical agent detectors.
    Through our combat support programs, DTRA improves force protection 
by developing technology that mitigates the blast effects of high 
explosives. We accomplish this through modeling and simulation, as well 
as field testing. Technology that we developed helped to save lives at 
the Pentagon on September 11, 2001. We perform vulnerability 
assessments of over 100 military bases and installations every year, as 
well as leadership sites including Capitol Hill. Our consequence 
management capabilities are in great demand. We have supported national 
exercises including TOPOFF 2000, and special national events such as 
the Presidential Inauguration and the 2002 Olympics.
    Finally, we support that ultimate deterrent of large scale 
aggression--US nuclear forces. DTRA assists the Services with their 
nuclear missions, provides special nuclear-weapons related support to 
the Department's leadership, and serves as a DoD interface to the 
National Nuclear Security Administration. We are the nation's expert on 
the effects of nuclear weapons.
    Mr. Chairman, I would like to now review some of our nuclear and 
radiological detection programs.
    Our most recent effort--the Congressionally directed Unconventional 
Nuclear Warfare Defense (UNWD) program--has been designed specifically 
to develop a prescribed list of equipment and procedures for systems 
that can detect, give early warning, and establish a successful 
response to an attack upon military installations involving nuclear or 
radiological weapons. When complete, the program's equipment list and 
procedures will be transferable to other interested federal, state, 
local or private organizations to provide protection to their critical 
sites. These tools are being developed through a rigorous series of 
experiments, demonstrations, and critiques at four permanent test-beds 
that are varied in nature and geography. These test-beds are located at 
Kirtland Air Force Base, New Mexico; Naval Submarine Base Kings Bay, 
Georgia; Marine Corps Base Camp Lejeune, North Carolina; and Fort 
Leonard Wood, Missouri. We conducted a successful demonstration at the 
first test-bed at Kirtland Air Force Base on August 26, 2002. We intend 
to have the other test-beds operational by April 2003.
    This is not a research and development effort but an operationally 
focused program to determine what we can do now and in the near future. 
The UNWD program is designing test-beds to:

<bullet> Connect with the existing base emergency response and warning 
        system.
<bullet> Use existing laboratory and commercial technologies including 
        radiation detectors, video, motion detectors, and radar.
<bullet> Have the capability to incorporate improved sensors and 
        technologies as well as chemical, biological, and explosive 
        sensors.
<bullet> Refine the concept of operations for response forces, the FBI, 
        and the DOE Nuclear Emergency Search Team.
    There is an urgent need for a real-time operational capability to 
detect, track, identify, and validate the presence of radiological 
material or nuclear weapons. This is an extraordinarily challenging 
problem. The answer is not a single mission-specific sensor or device 
that alerts only the user. The future lies in the generation of an 
integrated system of multi-functional sensors. This system must provide 
comprehensive detection and analysis capability while adjusting to 
background changes to reduce the frequency of false alarms. Redundancy 
is required to eliminate the risk of single-point failures within the 
detection system. The system must automatically transfer data from the 
actual detector/sensor suites to provide multi-agency networks and 
emergency responders with the appropriate analyzed data to improve the 
effectiveness and efficiency of limited specialized personnel assets.
    Additionally, I should mention that the Agency is a member of an 
interagency working group dealing with Radiological Dispersal Devices. 
We are assisting in the development of doctrine and protocols for the 
detection of illegal radiological materials that might be transported 
across the border.
    DTRA also serves as the executive agent for the DoD/FBI and DoD/US 
Customs Service programs designed to deter the proliferation of WMD in 
the states of the former Soviet Union, the Baltic countries, and 
Eastern Europe. DTRA, in concert with the FBI and Customs Service, 
provides equipment and specialized training to border guards, customs 
officials, and law enforcement agents to help them develop the 
capability to identify and interdict WMD and WMD-related materials.
    Under the Cooperative Threat Reduction program, DTRA is installing 
pedestrian and vehicle Special Nuclear Material detectors at all 
Russian nuclear weapons storage sites. A contract has been awarded for 
the first eight of these sites. The detector chosen was one of three 
Russian manufactured types that were tested at the joint DoD and 
Russian Ministry of Defense Security Assessment and Training Center in 
Sergiev Possad, Russia.
    DTRA also is developing sensors in support of its arms control 
mission. Currently available radiation detectors are capable of 
satisfying some of our arms control mission needs but have limitations 
that can restrict their use and impact on mission planning. Our focus 
is on developing tools for non-technical personnel such as arms control 
inspectors, special operations forces, and border inspectors. These 
tools must be rugged, operationally simple, easy to maintain, and 
provide a straightforward indicator--a red or green light, for example.
    For gamma ray detection, the two standard detectors are thallium-
doped sodium iodide (Nal(TI)) and high purity germanium (HPGe). The 
high purity Germanium detector offers great spectral resolution and is 
capable of identifying most nuclear and radiation sources. Its drawback 
is that it requires liquid nitrogen cooling and this can be very 
burdensome for remote or portable operations. Thallium-doped sodium 
iodide detectors operate at room temperature and eliminate the 
logistical requirement of liquid nitrogen--but offer much poorer 
spectral resolution. They can determine if radiation is present and can 
screen items successfully, but may have difficulty in identifying the 
precise radiation source because of their poor resolution.
    In an effort to replace both types of detectors, DTRA is conducting 
research and development on several room temperature detectors that 
offer resolution closer to that of high purity germanium. We are 
conducting research with detectors based on mercuric iodide (HgI2) and 
cadmium zinc telluride (CZT) semiconductors, xenon gas, and lanthanum 
halide scintillators (LaCl3 and LABr3 doped with cesium). We are also 
experimenting with alternative methods such as electromechanical 
cooling for high purity germanium detectors so as to eliminate the 
logistical requirement for liquid nitrogen.
    For neutron detection, the standard detector is a helium-3 
ionization tube. This detector is very capable of detecting neutrons 
but is limited in shape, collection efficiency, and ruggedness. DTRA is 
experimenting with new materials including boron-doped materials, boron 
nitride films, lithium-6 doped materials, anthracene-doped plexiglass, 
and gallium arsinide.
    DTRA is also developing detection capabilities to locate and 
identify radiation sources over a large area using UAVs. We are 
pursuing other methods to shorten the interrogation time to identify 
radiological sources.
    In conclusion, DTRA is the near-term interface between research and 
development and the warfighter. We integrate technology from all 
sources and develop products and tools that enable the combatant 
commanders to meet WMD challenges.
    Mr. Chairman, this concludes my remarks. I would be pleased to 
respond to your questions.

    Mr. Greenwood. Thank you, Dr. Younger.
    Now we will hear from Gary Jones.

                   TESTIMONY OF GARY L. JONES

    Ms. Jones. Thank you, Mr. Chairman. Good morning.
    I appreciate the opportunity to be here today to discuss 
our work related to Customs' acquisition and deployment of 
radiation detection equipment, and our report on assistance 
provided by the United States to foreign countries to combat 
nuclear smuggling.
    As you know, we have also been doing work for this 
committee, including visits to ports, concerning other aspects 
of Customs' inspection of cargo at seaports. The Customs 
Service has deemed the information we are collecting in 
relation to that work as law-enforcement-sensitive which 
precludes us from discussing it in an open hearing. As you 
noted, Mr. Chairman, Ms. Ekstrand will be happy to share 
information about this law-enforcement-sensitive work in that 
closed session.
    Our observations concerning the acquisition of radiation 
detection equipment have not changed since we reported to you 
in August. Customs officials told us that they are currently 
relying on radiation pagers, personal detectors designed to be 
worn on a belt, as the primary equipment to detect nuclear 
material, and plans to make the pagers standard equipment for 
each of its 7,500 inspectors by 2003. However, the pagers have 
a limited range and are not designed to detect weapons usable 
nuclear material. According to U.S. radiation detection vendors 
and DOE laboratory specialists, pagers are generally used as 
personal safety devices to protect against radiation exposure, 
not as search instruments, and are more effectively used in 
conjunction with other radiation detection equipment such as 
portal monitors.
    In addition to the pagers, as Mr. Bonner noted, Customs has 
also deployed over 200 radiation detectors on its X-ray systems 
for screening small packages, and plans to purchase 400 portal 
monitors for screening pedestrians and entire vehicles by the 
end of fiscal year 2003. To date, Customs has only deployed 
portal monitors at one border crossing as a pilot project, and 
the results of that pilot are not yet available.
    To guide its efforts to install radiation detection 
equipment at all U.S. ports of entry, Customs needs to develop 
a comprehensive strategic plan, and in the near term, while the 
plan is being developed, consider immediate steps to deploy 
currently available radiation detection equipment. A 
comprehensive plan would, among other things, assess 
vulnerabilities and risks; identify the complement of radiation 
detection equipment that could be used at each type of border 
crossing, and whether it could be immediately deployed; 
identify longer-term radiation detection needs; and develop 
measures to ensure that the equipment is adequately maintained.
    However, it is not enough to simply deploy equipment. 
Customs personnel must be effectively trained in radiation 
science, the use of the equipment, and to identify and respond 
to alarms. The plan would need to identify costs, annual 
budgetary needs, and timeframes for all of these activities. 
Such a plan would provide for an integrated systematic approach 
for Customs' efforts and provide the basis for setting 
priorities and for coordinating efforts with other Federal, 
State, and local agencies that would be involved with these 
activities.
    Let me turn briefly to the assistance that the U.S. has 
provided to other countries to combat nuclear smuggling. Six 
Federal agencies, DOE, and the Departments of State and 
Defense, Customs, the FBI, and the Coast Guard, spent about $86 
million for fiscal year 1992 through 2001 to help about 30 
countries, mostly in the former Soviet Union and Central and 
Eastern Europe. The agencies have provided a range of 
assistance, including radiation detection portal monitors, 
mobile vans equipped with radiation detectors, hand-held 
radiation detectors, and a variety of training and equipment to 
Customs, border guard, and law enforcement officials.
    Through 2001, one program, DOE's Second Line of Defense, 
had installed 70 portal monitors at 8 border crossings in 
Russia at a cost of $11.2 million. These 8 are the first of 
about 60 sites where DOE plans to install portal monitors based 
on its assessment of over 300 border crossings in Russia. DOE 
prioritized the border crossings based on factors that might 
increase the risk that potential smugglers would use particular 
routes to smuggle nuclear material out of Russia.
    As Mr. Stearns noted in his opening remarks, the portal 
monitors the U.S. has provided to Russia have detected more 
than 275 instances involving radioactive material.
    During our visit to Russia, we observed the technical setup 
at the Moscow airport. They had portal monitors, closed-circuit 
cameras to monitor them, and a computerized control room all 
funded by the Department of Energy. Russian officials tested 
the equipment we saw at the airport on our behalf. With our 
knowledge they planted a radioactive source in an attache case 
that we carried past a pedestrian portal monitor, which 
activated an alarm. A computer screen in a control room 
displayed our movements past the portal monitor. This is an 
example, Mr. Chairman, of the type of technology that we 
purchased for other countries.
    I will be more than happy to respond to questions at the 
appropriate time.
    [The prepared statement of Gary L. Jones follows:]
 Prepared Statement of Gary L. Jones, Director, Natural Resources and 
 Environment, and Laurie E. Ekstrand, Director, Tax Administration and 
            Justice, United States General Accounting Office
    Mr. Chairman and Members of the Subcommittee: We appreciate the 
opportunity to be here today to discuss our ongoing work related to 
Customs' acquisition and deployment of radiation detection equipment, 
and our report related to assistance provided by the United States to 
foreign countries to combat nuclear smuggling.<SUP>1</SUP> As you know, 
we have also been doing work for the Committee, including visits to 
ports, concerning other aspects of Customs' inspection of cargo at 
seaports. The Customs Service has deemed the information we are 
collecting regarding that work as law enforcement sensitive, which 
precludes us from discussing it in an open hearing. We understand that 
a closed session for questions and answers will follow this open 
session. We will be happy to share information about this law 
enforcement sensitive work in that setting.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Nuclear Nonproliferation: U.S. 
Efforts to Help Other Countries Combat Nuclear Smuggling Need 
Strengthened Coordination and Planning, GAO02426, (Washington, D.C.: 
May 16, 2002).
---------------------------------------------------------------------------
    Our testimony focuses on (1) Customs' acquisition and deployment of 
radiation detection equipment on U.S. borders and ports of entry and 
(2) U.S. assistance to foreign countries to help them combat nuclear 
smuggling. We shared our observations from visits to two major ports 
with this Subcommittee during a closed hearing on July 9, 2002, and our 
observations on the deployment of radiation detection equipment in a 
letter to the full Committee on August 15, 2002. Our statement today 
results from interviews with Customs and DOE officials and draws upon 
our prior work on U.S. efforts to help other countries combat nuclear 
smuggling.
    Our observations concerning the acquisition of radiation detection 
equipment have not changed from what we reported to you in August. 
Specifically, the Customs Service's primary radiation detection 
equipment--radiation pagers--have certain limitations and may be 
inappropriate for the task. Further, we remain concerned that no 
comprehensive plan is in place for installing and using radiation 
detection equipment at all U.S. border crossings and ports of entry. 
Regarding U.S. efforts to help other countries combat nuclear 
smuggling, a number of U.S. agencies, including Customs, have provided 
assistance to foreign countries--mostly in the former Soviet Union and 
Central and Eastern Europe. The agencies have provided a range of 
assistance including radiation detection equipment and training as well 
as other equipment and training to generally improve countries' ability 
to interdict nuclear smuggling.
  customs' acquisition and deployment of radiation detection equipment
    Based on our work with Customs and DOE officials and our review of 
U.S. efforts to help other countries combat nuclear smuggling, we have 
concerns that Customs has not yet deployed the best available 
technologies for detecting radioactive and nuclear materials at U.S. 
border crossings and ports of entry. Customs officials told us that its 
approximately 7,500 inspectors rely primarily on personal radiation 
detection pagers, worn on a belt. Since fiscal year 1998, Customs has 
deployed about 4,200 pagers among its inspectors and expects to 
purchase over 4,000 additional pagers to complete deployment by 
September 2003. At that time, every inspector will have his or her own 
pager.
    However, radiation detection pagers have limitations. DOE officials 
told us that they do not view pagers as search instruments, but rather 
as personal safety devices to protect against radiation exposure, and 
that the pagers have a limited range and are not designed to detect 
weapons-usable nuclear material. According to U.S. radiation detection 
vendors and DOE laboratory specialists, pagers are more effectively 
used in conjunction with other radiation detection equipment, such as 
portal monitors similar to what DOE is providing to Russia for use at 
its border crossings. Customs has deployed over 200 radiation detectors 
on its x-ray systems for screening small packages, but it has not 
deployed the larger portal monitors for screening pedestrians and 
entire vehicles. Customs plans to install portal monitors at every U.S. 
border crossing and port of entry, but so far has only deployed them at 
one border crossing as a pilot project. Customs has told us that a 
report on the pilot project would be issued by the middle of this 
month, but according to a Customs official we spoke with the report is 
not yet available. We will be reviewing, among other things, the 
results of this pilot project in response to the Committee's recent 
request to review the Customs Service's efforts to deploy radiation 
detection equipment on U.S. borders and ports of entry. Customs 
officials also told us that they plan to purchase up to 400 portal 
monitors by the end of fiscal year 2003. While these purchases are a 
step in the right direction, Customs officials told us that equipment 
evaluation and testing could still take several years, and in the 
meantime they do not have a time frame or specific plan for actually 
deploying portal monitors.
    We believe that it is important that Customs develop a 
comprehensive plan for installing radiation detection equipment at all 
U.S. border crossings and ports of entry, and in the near term, while 
the plan is being developed, consider immediate steps to deploy 
currently available radiation detection equipment. A comprehensive plan 
would address, among other things, vulnerabilities and risks; identify 
the complement of radiation detection equipment that should be used at 
each type of border entry point--air, rail, land, and sea--and whether 
equipment could be immediately deployed; identify longer-term radiation 
detection needs; and develop measures to ensure that the equipment is 
adequately maintained. However, it is not enough to simply deploy 
equipment. Customs personnel must be effectively trained in radiation 
science, the use of the equipment, and identifying and responding to 
alarms. The plan would need to identify costs, annual budgetary needs, 
and timeframes for all these activities. The plan would provide for an 
integrated, systematic approach to Customs antiterrorism efforts and 
provide the basis for setting priorities and for coordinating efforts 
with other federal, state, and local agencies that would be involved 
with these activities. While Customs officials told us that they have 
developed the elements of a plan, including schedules to purchase 
equipment and train personnel, these elements have not yet been 
integrated into a comprehensive plan.
       u.s. international assistance to combat nuclear smuggling
    U.S. assistance efforts to combat nuclear smuggling are divided 
among six federal agencies--DOE and the Departments of State and 
Defense; Customs; the Federal Bureau of Investigation (FBI); and the 
U.S. Coast Guard. From fiscal year 1992 through 2001, the six agencies 
spent about $86 million to help about 30 countries, mostly in the 
former Soviet Union and Central and Eastern Europe, combat the threat 
of smuggling of nuclear and other materials that could be used in 
weapons of mass destruction. The agencies have provided a range of 
assistance including radiation detection equipment and training as well 
as other equipment and training to generally improve countries' ability 
to interdict nuclear smuggling. DOE has two programs to combat nuclear 
smuggling, primarily focusing on Russia. The State Department has 
provided radiation detection portal monitors, mobile vans equipped with 
radiation detectors, handheld radiation detectors, and other assistance 
to about 30 countries through two separate programs. The Department of 
Defense has two programs that have provided radiation detection portal 
monitors, handheld detectors, and other assistance to about 20 
countries. With funding provided by the Departments of State and 
Defense, Customs, the FBI, and the U.S. Coast Guard have provided a 
variety of training and equipment to customs, border guard, and law 
enforcement officials in numerous countries.
    As part of U.S. assistance to combat nuclear smuggling, DOE is 
implementing the Second Line of Defense program to install radiation 
detection portal monitors at Russian border crossings. From fiscal year 
1997 through 2001, DOE installed 70 portal monitors at eight border 
crossings in Russia--an airport in Moscow, six seaports and one 
railroad crossing--at a cost of $11.2 million. The eight border 
crossings are the first of close to 60 sites where DOE plans to install 
portal monitors based on its assessment of over 300 border crossings in 
Russia. DOE prioritized the border crossings based on factors that 
might increase the risk that potential smugglers would use particular 
routes to smuggle nuclear material out of Russia. According to DOE 
officials, the portal monitors they provided to Russia have detected 
more than 275 cases involving radioactive material including 
contaminated scrap metal, irradiated cargo, and other radioactive 
materials that could pose a proliferation concern.
    Russian customs officials told us that radiation detection 
equipment funded by DOE's Second Line of Defense program has helped 
accelerate Russia's plans to improve border security. According to 
these officials, as of October 2001, DOE had financed the purchase of 
about 15 percent of Russia's 300 portal monitors. The U.S.-funded 
equipment is manufactured in Russia to, among other things, facilitate 
maintenance, and DOE national laboratory personnel test the portal 
monitors to ensure that they are placed in an optimal configuration (to 
maximize detection capability) and are being used as intended. 
According to Russian officials, there is excellent cooperation with DOE 
on ways to continually improve the performance of the equipment, and 
DOE makes follow-up visits to inspect the equipment and ensure that it 
is recalibrated as necessary to meet performance specifications.
    During our visit to Russia, we observed several U.S.-funded 
pedestrian portal monitors that were installed at Moscow's Sheremetyevo 
Airport as well as a control room that included video equipment and a 
computerized monitoring system, also funded by DOE, that was connected 
to the portal monitors. Russian officials tested the equipment we saw 
at the airport on our behalf. With our knowledge, they ``planted'' a 
radioactive source in an attache case that we carried past a pedestrian 
portal monitor, which activated an alarm. A computer screen in the 
control room displayed our movements past the portal monitor.
    Mr. Chairman, this completes my prepared statement. We will be 
happy to answer any questions you or other Members of the Subcommittee 
may have at this time.

    Mr. Greenwood. Thank you very much.
    And now we look forward to hearing from the Honorable 
Jeffrey Rush, Jr., the Inspector General for the U.S. 
Department of Treasury. Good morning, sir.

                 TESTIMONY OF JEFFREY RUSH, JR.

    Mr. Rush. Good morning, Mr. Chairman, Mr. Deutsch, members 
of the committee. I am delighted to be here. As you have 
already heard from my colleagues at GAO, they have been looking 
at the nuclear threat at a time when my Office of Audit has 
been largely looking at the broader issues of contraband 
intervention at seaports and large containers. Much of what I 
am going to share with you today I will share in a closed 
session for the reasons that I hope are clear; that is, that 
audit work is ongoing and in many instances involves law-
enforcement-sensitive information. But I need to update you on 
my most recent efforts in working with other offices of the 
inspector general.
    As you begin to look at these issues as they relate solely 
to the Customs Service, right now I am looking at them with my 
colleagues at the Department of Justice, and in Transportation, 
and in FEMA, and at G S A and others who are involved in this 
major challenge to transition from the departments that we now 
have to audit and investigate to the Department of Homeland 
Security, and we have been meeting on a regular basis to deal 
with those issues. I must tell you, they will complicate to 
some extent the performance of our audit program. Much of what 
we have been doing in the Department of Treasury with respect 
to the Customs Service and intervention has been driven by 
changes that occurred after 9/11 and trying to maintain a 
useful audit program, a program that actually informs the 
management on whether a program is working as designed, has 
been subject to change. Those changes are identified in my 
written testimony, and I talk about the reprioritizing. Those 
changes will continue, and they will continue well into 2003.
    What I can add, though, is that beyond our limited work 
looking largely at seaports, we are now looking at rails. We 
will be looking at international mail in an effort to close the 
gap of all means and modes of transportation where any 
instrument might enter this country by terrorists.
    I will close my remarks now. I will be pleased to answer 
any questions you have, and particularly those in closed 
session.
    [The prepared statement of Jeffrey Rush, Jr., follows:]
Prepared Statement of Jeffrey Rush, Jr., Inspector General, Department 
                            of the Treasury
    Mr. Chairman, Representative Deutsch, members of the Subcommittee, 
I am pleased to appear before the Subcommittee to discuss our on-going 
review of the U.S. Customs Service's (Customs) contraband interdiction 
efforts for vessel containers at major United States seaports.
    As a matter of background, my office is responsible for conducting 
and supervising audits and investigations of the programs and 
operations of 11 bureaus and other component offices of the Department 
of Treasury, including Customs. The missions of these bureaus and 
offices include law enforcement, banking regulation, production of 
currency and coins, and management of the public debt and other fiscal 
services on behalf of the Federal government.
    Each year my office produces an annual plan identifying the 
highest-risk audits and evaluations we intend to undertake as well as 
those mandated by law. Shortly after developing our plan for Fiscal 
Year (FY) 2002, we re-prioritized our annual audit plan in light of 
September 11th. In this regard, our revised FY 2002 Annual Plan, 
published last January, identified 27 potential audits of Treasury 
operations related to terrorism. Among the audits that we had underway 
prior to September 11th was an audit of Customs drug interdiction 
efforts at Port Everglades, Florida. That audit of narcotics 
interdiction looked at targeting, inspection, and physical security of 
vessel containers. After issuing our report on Port Everglades to 
Customs and this Committee, we re-scoped the remaining seaport work to 
focus on Customs efforts to target, inspect, and secure containers for 
not only narcotics and other contraband, but also instruments of 
terrorism.
    We selected four major seaports to review Customs contraband 
targeting, inspection, and physical security efforts over vessel 
containers. The seaports selected are Los Angeles/Long Beach, New York/
Newark, Charleston, and Philadelphia. Collectively, these four seaports 
account for 56 percent of the vessel containers entering the United 
States during the 12-month period ending March 2002. We are in the 
process of completing our audit fieldwork at Los Angeles/Long Beach and 
Charleston, and expect to issue our final reports on this work by early 
December 2002. Our work at New York/Newark and Philadelphia is on-
going, we anticipate issuing our reports on these seaports in early 
2003.
    Other re-prioritized Customs audits include: (1)--counter-terrorism 
efforts related to international mail to determine whether all 
international mail is forwarded to Customs for inspection and Customs 
adequately inspects the mail for illegal and destructive materials; 
(2)--the use of personal radiation detection devices and itemisers by 
Customs to determine whether this equipment has been deployed in an 
effective manner to enhance enforcement efforts; and (3)--similar to 
our work at the seaports, Customs' targeting, inspection, and security 
of inbound rail shipments for contraband, including implements of 
terrorism. All of our work on these re-prioritized audits is on-going 
and we expect to issue reports in late 2002 and early 2003.
    In a letter dated May 1, 2002, the Committee and Subcommittee 
requested that the Department of Transportation Inspector General and 
my office conduct comprehensive reviews into the adequacy of the 
systems used to determine the contents, shipping history, and risk 
assessment of all containers entering the U.S. by sea. In my response 
dated May 13, 2002, I advised that my office had work underway and 
planned that would address many of the issues leading to this request. 
We have met with Department of Transportation Office of Inspector 
General staff and the U.S. General Accounting Office several times to 
coordinate our on-going audit work. Additionally, we plan to review two 
of Customs new initiatives: (1) the Container Security Initiative (CSI) 
and (2) the Customs-Trade Partnership Against Terrorism (C-TPAT).
    As I informed your staff earlier, it would be inappropriate for me 
to discuss our on-going audit work so as not to prejudice the audit 
outcomes or compromise information designated ``law enforcement 
sensitive'' by Customs. It is my understanding that you plan to go into 
executive session. I would be pleased to answer as many of those 
questions as possible during the executive session.

    Mr. Greenwood. Thank you, Mr. Rush.
    We are now going to view a brief videotape, which will, I 
think, set some predicate for our further discussion. The 
witnesses will probably want to turn around.
    [Videotape shown.]
    Mr. Greenwood. As we move into closed session, the question 
we should all ask is what if this intelligence was correct? 
What is the government doing to prevent someone from smuggling 
a nuclear weapon into New York Harbor, and are these efforts 
sufficient?
    We are now going to recess and move to a closed 
subcommittee. The Chair recognizes himself for a unanimous 
consent request and to offer a motion. Because of the sensitive 
nature of this hearing, particularly its implications for 
national security, and after consultations with the Minority, I 
will offer a motion that the subcommittee go into executive 
session. I yield to Mr. Deutsch for any comments on this 
procedure.
    The Chair moves that pursuant to clause 2(g) of rule 11 of 
the rules of the House, the remainder of this hearing will be 
conducted in executive session to protect information that 
might endanger national security.
    Is there discussion on the motion? If there is no 
discussion pursuant to the rule, a recorded vote is ordered. 
Those opposed, say nay.
    Those in favor, say aye.
    The ayes appear to have it. The ayes have it, and the 
motion is agreed to.
    We will reconvene in just a few short minutes in room 2322, 
and that hearing--that portion of our hearing will be closed to 
the public and open only to our witnesses, to the members, and 
to those staff who have clearance. Committee will recess.
    [Whereupon, at 10:18 a.m., the subcommittee proceeded in 
Executive Session.]

</pre></body></html>
